1a
APPENDIX A
TITLE 15—COMMERCE AND TRADE
CHAPTER 2A—SECURITIES
AND TRUST INDENTURES
SUBCHAPTER 1—DOMESTIC SECURITIES
§ 77z-1. Private securities litigation
(a) Private class actions
(1) In general
The provisions of this subsection shall apply
to each private action arising under this subchapter that is brought as a plaintiff class action pursuant to the Federal Rules of Civil Procedure.
(2) Certification filed with complaint
(A) In general
Each plaintiff seeking to serve as a representative party on behalf of a class shall provide a sworn certification, which shall be
personally signed by such plaintiff and filed
with the complaint, that—
(i) states that the plaintiff has reviewed the complaint and authorized its
filing;
(ii) states that the plaintiff did not
purchase the security that is the subject
of the complaint at the direction of plaintiff ’s counsel or in order to participate in
any private action arising under this subchapter;

2a
(iii) states that the plaintiff is willing
to serve as a representative party on behalf of a class, including providing testimony at deposition and trial, if necessary;
(iv) sets forth all of the transactions
of the plaintiff in the security that is the
subject of the complaint during the class
period specified in the complaint;
(v) identifies any other action under
this subchapter, filed during the 3-year period preceding the date on which the certification is signed by the plaintiff, in
which the plaintiff has sought to serve, or
served, as a representative party on behalf of a class; and
(vi) states that the plaintiff will not
accept any payment for serving as a representative party on behalf of a class beyond the plaintiff ’s pro rata share of any
recovery, except as ordered or approved
by the court in accordance with paragraph (4).
(B) Nonwaiver of attorney-client privilege
The certification filed pursuant to subparagraph (A) shall not be construed to be a
waiver of the attorney-client privilege.
(3) Appointment of lead plaintiff
(A) Early notice to class members
(i) In general
Not later than 20 days after the
date on which the complaint is filed, the

3a
plaintiff or plaintiffs shall cause to be
published, in a widely circulated national business-oriented publication or
wire service, a notice advising members
of the purported plaintiff class—
(I) of the pendency of the action, the claims asserted therein, and
the purported class period; and
(II) that, not later than 60 days
after the date on which the notice is
published, any member of the purported class may move the court to
serve as lead plaintiff of the purported class.
(ii) Multiple actions
If more than one action on behalf of a
class asserting substantially the same
claim or claims arising under this subchapter is filed, only the plaintiff or plaintiffs in the first filed action shall be
required to cause notice to be published
in accordance with clause (i).
(iii) Additional notices may be required under Federal rules
Notice required under clause (i) shall
be in addition to any notice required pursuant to the Federal Rules of Civil Procedure.
(B) Appointment of lead plaintiff
(i) In general
Not later than 90 days after the date
on which a notice is published under

4a
subparagraph (A)(i), the court shall consider any motion made by a purported
class member in response to the notice,
including any motion by a class member
who is not individually named as a plaintiff in the complaint or complaints, and
shall appoint as lead plaintiff the member or members of the purported plaintiff
class that the court determines to be most
capable of adequately representing the
interests of class members (hereafter in
this paragraph referred to as the “most
adequate plaintiff ”) in accordance with
this subparagraph.
(ii) Consolidated actions
If more than one action on behalf of a
class asserting substantially the same
claim or claims arising under this subchapter has been filed, and any party has
sought to consolidate those actions for
pretrial purposes or for trial, the court
shall not make the determination required by clause (i) until after the decision on the motion to consolidate is
rendered. As soon as practicable after
such decision is rendered, the court shall
appoint the most adequate plaintiff as
lead plaintiff for the consolidated actions
in accordance with this subparagraph.
(iii) Rebuttable presumption
(I) In general
Subject to subclause (II), for purposes of clause (i), the court shall

5a
adopt a presumption that the most
adequate plaintiff in any private action arising under this subchapter is
the person or group of persons that—
(aa) has either filed the
complaint or made a motion in
response to a notice under subparagraph (A)(i);
(bb) in the determination of
the court, has the largest financial interest in the relief sought
by the class; and (cc) otherwise
satisfies the requirements of
Rule 23 of the Federal Rules of
Civil Procedure.
(II) Rebuttal evidence
The presumption described in
subclause (I) may be rebutted only
upon proof by a member of the purported plaintiff class that the presumptively most adequate plaintiff—
(aa) will not fairly and adequately protect the interests of
the class; or
(bb) is subject to unique defenses that render such plaintiff
incapable of adequately representing the class.
(iv) Discovery
For purposes of this subparagraph,
discovery relating to whether a member

6a
or members of the purported plaintiff
class is the most adequate plaintiff may
be conducted by a plaintiff only if the
plaintiff first demonstrates a reasonable
basis for a finding that the presumptively
most adequate plaintiff is incapable of adequately representing the class.
(v) Selection of lead counsel
The most adequate plaintiff shall,
subject to the approval of the court, select
and retain counsel to represent the class.
(vi) Restrictions
plaintiffs

on

professional

Except as the court may otherwise
permit, consistent with the purposes of
this section, a person may be a lead plaintiff, or an officer, director, or fiduciary of a
lead plaintiff, in no more than 5 securities
class actions brought as plaintiff class actions pursuant to the Federal Rules of
Civil Procedure during any 3-year period.
(4) Recovery by plaintiffs
The share of any final judgment or of any settlement that is awarded to a representative party
serving on behalf of a class shall be equal, on a per
share basis, to the portion of the final judgment or
settlement awarded to all other members of the
class. Nothing in this paragraph shall be construed to limit the award of reasonable costs and
expenses (including lost wages) directly relating to
the representation of the class to any representative party serving on behalf of the class.

7a
(5) Restrictions on settlements under seal
The terms and provisions of any settlement
agreement of a class action shall not be filed under
seal, except that on motion of any party to the settlement, the court may order filing under seal for
those portions of a settlement agreement as to
which good cause is shown for such filing under
seal. For purposes of this paragraph, good cause
shall exist only if publication of a term or provision
of a settlement agreement would cause direct and
substantial harm to any party.
(6) Restrictions on payment of attorneys’
fees and expenses
Total attorneys’ fees and expenses awarded by
the court to counsel for the plaintiff class shall not
exceed a reasonable percentage of the amount of
any damages and prejudgment interest actually
paid to the class.
(7) Disclosure of settlement terms to class
members
Any proposed or final settlement agreement
that is published or otherwise disseminated to the
class shall include each of the following statements, along with a cover page summarizing the
information contained in such statements:
(A) Statement of plaintiff recovery
The amount of the settlement proposed to
be distributed to the parties to the action, determined in the aggregate and on an average
per share basis.

8a
(B) Statement of potential outcome of
case
(i) Agreement on amount of damages
If the settling parties agree on the
average amount of damages per share
that would be recoverable if the plaintiff
prevailed on each claim alleged under
this subchapter, a statement concerning
the average amount of such potential
damages per share.
(ii) Disagreement on amount of damages
If the parties do not agree on the average amount of damages per share that
would be recoverable if the plaintiff prevailed on each claim alleged under this
subchapter, a statement from each settling party concerning the issue or issues
on which the parties disagree.
(iii) Inadmissibility for certain purposes
A statement made in accordance
with clause (i) or (ii) concerning the
amount of damages shall not be admissible in any Federal or State judicial action
or administrative proceeding, other than
an action or proceeding arising out of
such statement.

9a
(C) Statement of attorneys’ fees or costs
sought
If any of the settling parties or their counsel intend to apply to the court for an award
of attorneys’ fees or costs from any fund established as part of the settlement, a statement
indicating, which parties or counsel intend to
make such an application, the amount of fees
and costs that will be sought (including the
amount of such fees and costs determined on
an average per share basis), and a brief explanation supporting the fees and costs sought.
(D) Identification of lawyers’ representatives
The name, telephone number, and address
of one or more representatives of counsel for
the plaintiff class who will be reasonably
available to answer questions from class members concerning any matter contained in any
notice of settlement published or otherwise
disseminated to the class.
(E) Reasons for settlement
A brief statement explaining the reasons
why the parties are proposing the settlement.
(F) Other information
Such other information as may be required by the court.
(8) Attorney conflict of interest
If a plaintiff class is represented by an attorney who directly owns or otherwise has a beneficial interest in the securities that are the subject

10a
of the litigation, the court shall make a determination of whether such ownership or other interest constitutes a conflict of interest sufficient to
disqualify the attorney from representing the
plaintiff class.
(b) Stay of discovery; preservation of evidence
(1) In general
In any private action arising under this subchapter, all discovery and other proceedings shall
be stayed during the pendency of any motion to
dismiss, unless the court finds, upon the motion of
any party, that particularized discovery is necessary to preserve evidence or to prevent undue prejudice to that party.
(2) Preservation of evidence
During the pendency of any stay of discovery
pursuant to this subsection, unless otherwise ordered by the court, any party to the action with
actual notice of the allegations contained in the
complaint shall treat all documents, data compilations (including electronically recorded or stored
data), and tangible objects that are in the custody
or control of such person and that are relevant to
the allegations, as if they were the subject of a continuing request for production of documents from
an opposing party under the Federal Rules of Civil
Procedure.
(3) Sanction for willful violation
A party aggrieved by the willful failure of an
opposing party to comply with paragraph (2) may
apply to the court for an order awarding appropriate sanctions.

11a
(4) Circumvention of stay of discovery
Upon a proper showing, a court may stay discovery proceedings in any private action in a State
court as necessary in aid of its jurisdiction, or to
protect or effectuate its judgments, in an action
subject to a stay of discovery pursuant to this subsection.
(c) Sanctions for abusive litigation
(1) Mandatory review by court
In any private action arising under this subchapter, upon final adjudication of the action, the
court shall include in the record specific findings
regarding compliance by each party and each attorney representing any party with each requirement of Rule 11(b) of the Federal Rules of Civil
Procedure as to any complaint, responsive pleading, or dispositive motion.
(2) Mandatory sanctions
If the court makes a finding under paragraph
(1) that a party or attorney violated any requirement of Rule 11(b) of the Federal Rules of Civil
Procedure as to any complaint, responsive pleading, or dispositive motion, the court shall impose
sanctions on such party or attorney in accordance
with Rule 11 of the Federal Rules of Civil Procedure. Prior to making a finding that any party or
attorney has violated Rule 11 of the Federal Rules
of Civil Procedure, the court shall give such party
or attorney notice and an opportunity to respond.

12a
(3) Presumption in favor of attorneys’ fees
and costs
(A) In general
Subject to subparagraphs (B) and (C), for
purposes of paragraph (2), the court shall
adopt a presumption that the appropriate
sanction—
(i) for failure of any responsive
pleading or dispositive motion to comply
with any requirement of Rule 11(b) of
the Federal Rules of Civil Procedure is
an award to the opposing party of the reasonable attorneys’ fees and other expenses incurred as a direct result of the
violation; and
(ii) for substantial failure of any
complaint to comply with any requirement of Rule 11(b) of the Federal Rules of
Civil Procedure is an award to the opposing party of the reasonable attorneys’ fees
and other expenses incurred in the action.
(B) Rebuttal evidence
The presumption described in subparagraph (A) may be rebutted only upon proof by
the party or attorney against whom sanctions
are to be imposed that—
(i) the award of attorneys’ fees and
other expenses will impose an unreasonable burden on that party or attorney and
would be unjust, and the failure to make

13a
such an award would not impose a
greater burden on the party in whose favor sanctions are to be imposed; or
(ii) the violation of Rule 11(b) of the
Federal Rules of Civil Procedure was de
minimis.
(C) Sanctions
If the party or attorney against whom
sanctions are to be imposed meets its burden
under subparagraph (B), the court shall
award the sanctions that the court deems appropriate pursuant to Rule 11 of the Federal
Rules of Civil Procedure.
(d) Defendant’s right to written interrogatories
In any private action arising under this subchapter in which the plaintiff may recover money damages
only on proof that a defendant acted with a particular
state of mind, the court shall, when requested by a defendant, submit to the jury a written interrogatory on
the issue of each such defendant’s state of mind at the
time the alleged violation occurred.

14a
§ 77z-2. Application of safe harbor for forwardlooking statements
(a) Applicability
This section shall apply only to a forward-looking
statement made by—
(1) an issuer that, at the time that the statement is made, is subject to the reporting requirements of section 78m(a) or section 78o(d) of this
title;
(2) a person acting on behalf of such issuer;
(3) an outside reviewer retained by such issuer making a statement on behalf of such issuer;
or
(4) an underwriter, with respect to information provided by such issuer or information derived from information provided by the issuer.
(b) Exclusions
Except to the extent otherwise specifically provided by rule, regulation, or order of the Commission,
this section shall not apply to a forward-looking statement—
(1) that is made with respect to the business
or operations of the issuer, if the issuer—
(A) during the 3-year period preceding
the date on which the statement was first
made—

15a
(i) was convicted of any felony or misdemeanor described in clauses (i) through
(iv) of section 78o(b)(4)(B) of this title; or
(ii) has been made the subject of a
judicial or administrative decree or order
arising out of a governmental action
that—
(I) prohibits future violations
of the antifraud provisions of the securities laws;
(II) requires that the issuer
cease and desist from violating the
antifraud provisions of the securities
laws; or
(III) determines that the issuer
violated the antifraud provisions of
the securities laws;
(B) makes the forward-looking statement in connection with an offering of securities by a blank check company;
(C)

issues penny stock;

(D) makes the forward-looking statement in connection with a rollup transaction;
or
(E) makes the forward-looking statement in connection with a going private transaction; or

16a
(2) that is—
(A) included in a financial statement
prepared in accordance with generally accepted accounting principles;
(B) contained in a registration statement of, or otherwise issued by, an investment
company;
(C)
offer;

made in connection with a tender

(D) made in connection with an initial
public offering;
(E) made in connection with an offering
by, or relating to the operations of, a partnership, limited liability company, or a direct participation investment program; or
(F) made in a disclosure of beneficial
ownership in a report required to be filed with
the Commission pursuant to section 78m(d) of
this title.
(c) Safe harbor
(1) In general
Except as provided in subsection (b), in any
private action arising under this subchapter that
is based on an untrue statement of a material fact
or omission of a material fact necessary to make
the statement not misleading, a person referred to
in subsection (a) shall not be liable with respect to
any forward-looking statement, whether written
or oral, if and to the extent that—

17a
(A)

the forward-looking statement is—

(i) identified as a forward-looking
statement, and is accompanied by meaningful cautionary statements identifying
important factors that could cause actual
results to differ materially from those in
the forward-looking statement; or
(ii)

immaterial; or

(B) the plaintiff fails to prove that the
forward-looking statement—
(i) if made by a natural person, was
made with actual knowledge by that person that the statement was false or misleading; or
(ii)
was—

if made by a business entity,

(I) made by or with the approval of an executive officer of that
entity, and
(II) made or approved by such
officer with actual knowledge by that
officer that the statement was false
or misleading.
(2) Oral forward-looking statements
In the case of an oral forward-looking statement made by an issuer that is subject to the reporting requirements of section 78m(a) or section
78o(d) of this title, or by a person acting on behalf
of such issuer, the requirement set forth in paragraph (1)(A) shall be deemed to be satisfied—

18a
(A) if the oral forward-looking statement is accompanied by a cautionary statement—
(i) that the particular oral statement is a forward-looking statement; and
(ii) that the actual results could differ materially from those projected in the
forward-looking statement; and
(B)

if—

(i) the oral forward-looking statement is accompanied by an oral statement
that additional information concerning
factors that could cause actual results to
differ materially from those in the forward-looking statement is contained in a
readily available written document, or
portion thereof;
(ii) the accompanying oral statement referred to in clause (i) identifies the
document, or portion thereof, that contains
the additional information about those factors relating to the forward-looking statement; and
(iii) the information contained in
that written document is a cautionary
statement that satisfies the standard established in paragraph (1)(A).
(3) Availability
Any document filed with the Commission or
generally disseminated shall be deemed to be
readily available for purposes of paragraph (2).

19a
(4) Effect on other safe harbors
The exemption provided for in paragraph (1)
shall be in addition to any exemption that the
Commission may establish by rule or regulation
under subsection (g).
(d) Duty to update
Nothing in this section shall impose upon any person a duty to update a forward-looking statement.
(e) Dispositive motion
On any motion to dismiss based upon subsection
(c)(1), the court shall consider any statement cited in
the complaint and cautionary statement accompanying
the forward-looking statement, which are not subject
to material dispute, cited by the defendant.
(f ) Stay pending decision on motion
In any private action arising under this subchapter, the court shall stay discovery (other than discovery
that is specifically directed to the applicability of the
exemption provided for in this section) during the pendency of any motion by a defendant for summary judgment that is based on the grounds that—
(1) the statement or omission upon which
the complaint is based is a forward-looking statement within the meaning of this section; and
(2) the exemption provided for in this section precludes a claim for relief.

20a
(g) Exemption authority
In addition to the exemptions provided for in this
section, the Commission may, by rule or regulation,
provide exemptions from or under any provision of this
subchapter, including with respect to liability that is
based on a statement or that is based on projections or
other forward-looking information, if and to the extent
that any such exemption is consistent with the public
interest and the protection of investors, as determined
by the Commission.
(h) Effect on other authority of Commission
Nothing in this section limits, either expressly or
by implication, the authority of the Commission to exercise similar authority or to adopt similar rules and
regulations with respect to forward-looking statements
under any other statute under which the Commission
exercises rulemaking authority.
(i) Definitions
For purposes of this section, the following definitions shall apply:
(1) Forward-looking statement
The term “forward-looking statement” means—
(A) a statement containing a projection
of revenues, income (including income loss),
earnings (including earnings loss) per share,
capital expenditures, dividends, capital structure, or other financial items;
(B) a statement of the plans and objectives of management for future operations,

21a
including plans or objectives relating to the
products or services of the issuer;
(C) a statement of future economic
performance, including any such statement
contained in a discussion and analysis of financial condition by the management or in
the results of operations included pursuant to
the rules and regulations of the Commission;
(D) any statement of the assumptions
underlying or relating to any statement described in subparagraph (A), (B), or (C);
(E) any report issued by an outside reviewer retained by an issuer, to the extent
that the report assesses a forward-looking
statement made by the issuer; or
(F) a statement containing a projection
or estimate of such other items as may be specified by rule or regulation of the Commission.
(2) Investment company
The term “investment company” has the same
meaning as in section 80a-3(a) of this title.
(3) Penny stock
The term “penny stock” has the same meaning as in section 78c(a)(51) of this title, and the
rules and regulations, or orders issued pursuant
to that section.
(4) Going private transaction
The term “going private transaction” has the
meaning given that term under the rules or

22a
regulations of the Commission issued pursuant to
section 78m(e) of this title.
(5) Securities laws
The term “securities laws” has the same
meaning as in section 78c of this title.
(6) Person acting on behalf of an issuer
The term “person acting on behalf of an issuer”
means an officer, director, or employee of the issuer.
(7) Other terms
The terms “blank check company”, “rollup
transaction”, “partnership”, “limited liability
company”, “executive officer of an entity” and
“direct participation investment program”, have
the meanings given those terms by rule or regulation of the Commission.

23a
APPENDIX B
TITLE 15—COMMERCE AND TRADE
CHAPTER 2B—SECURITIES EXCHANGES
§ 78u-4. Private securities litigation
(a) Private class actions
(1) In general
The provisions of this subsection shall apply
in each private action arising under this chapter
that is brought as a plaintiff class action pursuant
to the Federal Rules of Civil Procedure.
(2) Certification filed with complaint
(A) In general
Each plaintiff seeking to serve as a representative party on behalf of a class shall provide a sworn certification, which shall be
personally signed by such plaintiff and filed
with the complaint, that—
(i) states that the plaintiff has reviewed the complaint and authorized its
filing;
(ii) states that the plaintiff did not
purchase the security that is the subject
of the complaint at the direction of plaintiff ’s counsel or in order to participate in
any private action arising under this
chapter;
(iii) states that the plaintiff is willing to serve as a representative party on
behalf of a class, including providing

24a
testimony at deposition and trial, if necessary;
(iv) sets forth all of the transactions
of the plaintiff in the security that is the
subject of the complaint during the class
period specified in the complaint;
(v) identifies any other action under this chapter, filed during the 3-year
period preceding the date on which the
certification is signed by the plaintiff, in
which the plaintiff has sought to serve as
a representative party on behalf of a
class; and
(vi) states that the plaintiff will not
accept any payment for serving as a representative party on behalf of a class beyond the plaintiff ’s pro rata share of any
recovery, except as ordered or approved
by the court in accordance with paragraph (4).
(B) Nonwaiver of attorney-client privilege
The certification filed pursuant to subparagraph (A) shall not be construed to be a
waiver of the attorney-client privilege.
(3) Appointment of lead plaintiff
(A) Early notice to class members
(i) In general
Not later than 20 days after the date
on which the complaint is filed, the
plaintiff or plaintiffs shall cause to be

25a
published, in a widely circulated national
business-oriented publication or wire
service, a notice advising members of the
purported plaintiff class—
(I) of the pendency of the action, the claims asserted therein, and
the purported class period; and
(II) that, not later than 60 days
after the date on which the notice is
published, any member of the purported class may move the court to
serve as lead plaintiff of the purported class.
(ii) Multiple actions
If more than one action on behalf of a
class asserting substantially the same
claim or claims arising under this chapter
is filed, only the plaintiff or plaintiffs in
the first filed action shall be required to
cause notice to be published in accordance with clause (i).
(iii) Additional notices may be required under Federal rules
Notice required under clause (i) shall
be in addition to any notice required pursuant to the Federal Rules of Civil Procedure.

26a
(B) Appointment of lead plaintiff
(i) In general
Not later than 90 days after the date
on which a notice is published under subparagraph (A)(i), the court shall consider
any motion made by a purported class
member in response to the notice, including any motion by a class member who is
not individually named as a plaintiff in
the complaint or complaints, and shall
appoint as lead plaintiff the member or
members of the purported plaintiff class
that the court determines to be most capable of adequately representing the interests of class members (hereafter in
this paragraph referred to as the “most
adequate plaintiff ”) in accordance with
this subparagraph.
(ii) Consolidated actions
If more than one action on behalf of a
class asserting substantially the same
claim or claims arising under this chapter
has been filed, and any party has sought
to consolidate those actions for pretrial
purposes or for trial, the court shall not
make the determination required by
clause (i) until after the decision on the
motion to consolidate is rendered. As
soon as practicable after such decision is
rendered, the court shall appoint the
most adequate plaintiff as lead plaintiff
for the consolidated actions in accordance
with this paragraph.

27a
(iii) Rebuttable presumption
(I) In general
Subject to subclause (II), for purposes of clause (i), the court shall
adopt a presumption that the most
adequate plaintiff in any private action arising under this chapter is the
person or group of persons that—
(aa) has either filed the
complaint or made a motion in
response to a notice under subparagraph (A)(i);
(bb) in the determination
of the court, has the largest financial interest in the relief
sought by the class; and
(cc) otherwise satisfies the
requirements of Rule 23 of the
Federal Rules of Civil Procedure.
(II) Rebuttal evidence
The presumption described in
subclause (I) may be rebutted only
upon proof by a member of the purported plaintiff class that the presumptively most adequate plaintiff—
(aa) will not fairly and adequately protect the interests of
the class; or
(bb) is subject to unique
defenses that render such

28a
plaintiff incapable of adequately
representing the class.
(iv) Discovery
For purposes of this subparagraph,
discovery relating to whether a member
or members of the purported plaintiff
class is the most adequate plaintiff may
be conducted by a plaintiff only if the
plaintiff first demonstrates a reasonable
basis for a finding that the presumptively
most adequate plaintiff is incapable of adequately representing the class.
(v) Selection of lead counsel
The most adequate plaintiff shall,
subject to the approval of the court, select
and retain counsel to represent the class.
(vi) Restrictions
plaintiffs

on

professional

Except as the court may otherwise
permit, consistent with the purposes of
this section, a person may be a lead plaintiff, or an officer, director, or fiduciary of a
lead plaintiff, in no more than 5 securities
class actions brought as plaintiff class actions pursuant to the Federal Rules of
Civil Procedure during any 3-year period.
(4) Recovery by plaintiffs
The share of any final judgment or of any
settlement that is awarded to a representative
party serving on behalf of a class shall be equal,
on a per share basis, to the portion of the final

29a
judgment or settlement awarded to all other
members of the class. Nothing in this paragraph
shall be construed to limit the award of reasonable
costs and expenses (including lost wages) directly
relating to the representation of the class to any
representative party serving on behalf of a class.
(5) Restrictions on settlements under seal
The terms and provisions of any settlement
agreement of a class action shall not be filed under
seal, except that on motion of any party to the settlement, the court may order filing under seal for
those portions of a settlement agreement as to
which good cause is shown for such filing under
seal. For purposes of this paragraph, good cause
shall exist only if publication of a term or provision
of a settlement agreement would cause direct and
substantial harm to any party.
(6) Restrictions on payment of attorneys’
fees and expenses
Total attorneys’ fees and expenses awarded by
the court to counsel for the plaintiff class shall not
exceed a reasonable percentage of the amount of
any damages and prejudgment interest actually
paid to the class.
(7) Disclosure of settlement terms to class
members
Any proposed or final settlement agreement
that is published or otherwise disseminated to the
class shall include each of the following statements, along with a cover page summarizing the
information contained in such statements:

30a
(A) Statement of plaintiff recovery
The amount of the settlement proposed to
be distributed to the parties to the action, determined in the aggregate and on an average
per share basis.
(B) Statement of potential outcome of
case
(i) Agreement on amount of damages
If the settling parties agree on the
average amount of damages per share
that would be recoverable if the plaintiff
prevailed on each claim alleged under
this chapter, a statement concerning the
average amount of such potential damages per share.
(ii) Disagreement on amount of damages
If the parties do not agree on the average amount of damages per share that
would be recoverable if the plaintiff prevailed on each claim alleged under this
chapter, a statement from each settling
party concerning the issue or issues on
which the parties disagree.
(iii) Inadmissibility for certain purposes
A statement made in accordance
with clause (i) or (ii) concerning the
amount of damages shall not be admissible in any Federal or State judicial action
or administrative proceeding, other than

31a
an action or proceeding arising out of
such statement.
(C) Statement of attorneys’ fees or costs
sought
If any of the settling parties or their counsel intend to apply to the court for an award
of attorneys’ fees or costs from any fund established as part of the settlement, a statement
indicating which parties or counsel intend to
make such an application, the amount of fees
and costs that will be sought (including the
amount of such fees and costs determined on
an average per share basis), and a brief explanation supporting the fees and costs sought.
Such information shall be clearly summarized
on the cover page of any notice to a party of
any proposed or final settlement agreement.
(D) Identification of lawyers’ representatives
The name, telephone number, and address
of one or more representatives of counsel for
the plaintiff class who will be reasonably
available to answer questions from class
members concerning any matter contained in
any notice of settlement published or otherwise disseminated to the class.
(E) Reasons for settlement
A brief statement explaining the reasons
why the parties are proposing the settlement.

32a
(F) Other information
Such other information as may be required by the court.
(8) Security for payment of costs in class actions
In any private action arising under this chapter that is certified as a class action pursuant to
the Federal Rules of Civil Procedure, the court
may require an undertaking from the attorneys
for the plaintiff class, the plaintiff class, or both, or
from the attorneys for the defendant, the defendant, or both, in such proportions and at such times
as the court determines are just and equitable, for
the payment of fees and expenses that may be
awarded under this subsection.
(9) Attorney conflict of interest
If a plaintiff class is represented by an attorney who directly owns or otherwise has a beneficial interest in the securities that are the subject
of the litigation, the court shall make a determination of whether such ownership or other interest constitutes a conflict of interest sufficient to
disqualify the attorney from representing the
plaintiff class.
(b) Requirements for securities fraud actions
(1) Misleading statements and omissions
In any private action arising under this chapter in which the plaintiff alleges that the defendant—
(A) made an untrue statement of a material fact; or

33a
(B) omitted to state a material fact necessary in order to make the statements made,
in the light of the circumstances in which they
were made, not misleading;
the complaint shall specify each statement alleged
to have been misleading, the reason or reasons
why the statement is misleading, and, if an allegation regarding the statement or omission is made
on information and belief, the complaint shall
state with particularity all facts on which that
belief is formed.
(2) Required state of mind
(A) In general
Except as provided in subparagraph (B),
in any private action arising under this chapter in which the plaintiff may recover money
damages only on proof that the defendant
acted with a particular state of mind, the complaint shall, with respect to each act or omission alleged to violate this chapter, state with
particularity facts giving rise to a strong inference that the defendant acted with the required state of mind.
(B) Exception
In the case of an action for money damages brought against a credit rating agency or
a controlling person under this chapter, it
shall be sufficient, for purposes of pleading
any required state of mind in relation to such
action, that the complaint state with particularity facts giving rise to a strong inference

34a
that the credit rating agency knowingly or
recklessly failed—
(i) to conduct a reasonable investigation of the rated security with respect
to the factual elements relied upon by its
own methodology for evaluating credit
risk; or
(ii) to obtain reasonable verification
of such factual elements (which verification may be based on a sampling technique that does not amount to an audit)
from other sources that the credit rating
agency considered to be competent and
that were independent of the issuer and
underwriter.
(3) Motion to dismiss; stay of discovery
(A) Dismissal for failure to meet pleading requirements
In any private action arising under this
chapter, the court shall, on the motion of any
defendant, dismiss the complaint if the requirements of paragraphs (1) and (2) are not
met.
(B) Stay of discovery
In any private action arising under this
chapter, all discovery and other proceedings
shall be stayed during the pendency of any
motion to dismiss, unless the court finds upon
the motion of any party that particularized
discovery is necessary to preserve evidence or
to prevent undue prejudice to that party.

35a
(C) Preservation of evidence
(i) In general
During the pendency of any stay of
discovery pursuant to this paragraph, unless otherwise ordered by the court, any
party to the action with actual notice of
the allegations contained in the complaint shall treat all documents, data
compilations (including electronically
recorded or stored data), and tangible objects that are in the custody or control of
such person and that are relevant to the
allegations, as if they were the subject of
a continuing request for production of
documents from an opposing party under
the Federal Rules of Civil Procedure.
(ii) Sanction for willful violation
A party aggrieved by the willful failure of an opposing party to comply with
clause (i) may apply to the court for an order awarding appropriate sanctions.
(D) Circumvention of stay of discovery
Upon a proper showing, a court may stay
discovery proceedings in any private action in
a State court, as necessary in aid of its jurisdiction, or to protect or effectuate its judgments, in an action subject to a stay of
discovery pursuant to this paragraph.
(4) Loss causation
In any private action arising under this chapter, the plaintiff shall have the burden of proving

36a
that the act or omission of the defendant alleged
to violate this chapter caused the loss for which
the plaintiff seeks to recover damages.
(c) Sanctions for abusive litigation
(1) Mandatory review by court
In any private action arising under this chapter, upon final adjudication of the action, the court
shall include in the record specific findings regarding compliance by each party and each attorney
representing any party with each requirement of
Rule 11(b) of the Federal Rules of Civil Procedure
as to any complaint, responsive pleading, or dispositive motion.
(2) Mandatory sanctions
If the court makes a finding under paragraph
(1) that a party or attorney violated any requirement of Rule 11(b) of the Federal Rules of Civil
Procedure as to any complaint, responsive pleading, or dispositive motion, the court shall impose
sanctions on such party or attorney in accordance
with Rule 11 of the Federal Rules of Civil Procedure. Prior to making a finding that any party or
attorney has violated Rule 11 of the Federal Rules
of Civil Procedure, the court shall give such party
or attorney notice and an opportunity to respond.
(3) Presumption in favor of attorneys’ fees
and costs
(A) In general
Subject to subparagraphs (B) and (C), for
purposes of paragraph (2), the court shall
adopt a presumption that the appropriate
sanction—

37a
(i) for failure of any responsive
pleading or dispositive motion to comply
with any requirement of Rule 11(b) of the
Federal Rules of Civil Procedure is an
award to the opposing party of the reasonable attorneys’ fees and other expenses incurred as a direct result of the
violation; and
(ii) for substantial failure of any
complaint to comply with any requirement of Rule 11(b) of the Federal Rules of
Civil Procedure is an award to the opposing party of the reasonable attorneys’ fees
and other expenses incurred in the action.
(B) Rebuttal evidence
The presumption described in subparagraph (A) may be rebutted only upon proof by
the party or attorney against whom sanctions
are to be imposed that—
(i) the award of attorneys’ fees and
other expenses will impose an unreasonable burden on that party or attorney and
would be unjust, and the failure to make
such an award would not impose a
greater burden on the party in whose favor sanctions are to be imposed; or
(ii) the violation of Rule 11(b) of the
Federal Rules of Civil Procedure was de
minimis.

38a
(C) Sanctions
If the party or attorney against whom
sanctions are to be imposed meets its burden
under subparagraph (B), the court shall
award the sanctions that the court deems appropriate pursuant to Rule 11 of the Federal
Rules of Civil Procedure.
(d) Defendant’s right to written interrogatories
In any private action arising under this chapter in
which the plaintiff may recover money damages, the
court shall, when requested by a defendant, submit to
the jury a written interrogatory on the issue of each
such defendant’s state of mind at the time the alleged
violation occurred.
(e) Limitation on damages
(1) In general
Except as provided in paragraph (2), in any
private action arising under this chapter in which
the plaintiff seeks to establish damages by reference to the market price of a security, the award of
damages to the plaintiff shall not exceed the difference between the purchase or sale price paid or
received, as appropriate, by the plaintiff for the
subject security and the mean trading price of that
security during the 90-day period beginning on the
date on which the information correcting the misstatement or omission that is the basis for the action is disseminated to the market.

39a
(2) Exception
In any private action arising under this
chapter in which the plaintiff seeks to establish
damages by reference to the market price of a security, if the plaintiff sells or repurchases the subject security prior to the expiration of the 90-day
period described in paragraph (1), the plaintiff ’s
damages shall not exceed the difference between
the purchase or sale price paid or received, as appropriate, by the plaintiff for the security and the
mean trading price of the security during the period beginning immediately after dissemination of
information correcting the misstatement or omission and ending on the date on which the plaintiff
sells or repurchases the security.
(3) “Mean trading price” defined
For purposes of this subsection, the “mean
trading price” of a security shall be an average of
the daily trading price of that security, determined
as of the close of the market each day during the
90-day period referred to in paragraph (1).
(f ) Proportionate liability
(1) Applicability
Nothing in this subsection shall be construed
to create, affect, or in any manner modify, the
standard for liability associated with any action
arising under the securities laws.
(2) Liability for damages
(A) Joint and several liability
Any covered person against whom a final
judgment is entered in a private action shall

40a
be liable for damages jointly and severally
only if the trier of fact specifically determines
that such covered person knowingly committed a violation of the securities laws.
(B) Proportionate liability
(i) In general
Except as provided in subparagraph
(A), a covered person against whom a final judgment is entered in a private action shall be liable solely for the portion
of the judgment that corresponds to the
percentage of responsibility of that covered person, as determined under paragraph (3).
(ii) Recovery by and costs of covered
person
In any case in which a contractual relationship permits, a covered person that
prevails in any private action may recover the attorney’s fees and costs of that
covered person in connection with the action.
(3) Determination of responsibility
(A) In general
In any private action, the court shall instruct the jury to answer special interrogatories, or if there is no jury, shall make findings,
with respect to each covered person and each
of the other persons claimed by any of the parties to have caused or contributed to the loss
incurred by the plaintiff, including persons

41a
who have entered into settlements with the
plaintiff or plaintiffs, concerning—
(i) whether such person violated
the securities laws;
(ii) the percentage of responsibility
of such person, measured as a percentage
of the total fault of all persons who caused
or contributed to the loss incurred by the
plaintiff; and
(iii) whether such person knowingly committed a violation of the securities laws.
(B) Contents of special interrogatories
or findings
The responses to interrogatories, or findings, as appropriate, under subparagraph (A)
shall specify the total amount of damages that
the plaintiff is entitled to recover and the percentage of responsibility of each covered person found to have caused or contributed to the
loss incurred by the plaintiff or plaintiffs.
(C) Factors for consideration
In determining the percentage of responsibility under this paragraph, the trier of fact
shall consider—
(i) the nature of the conduct of each
covered person found to have caused or
contributed to the loss incurred by the
plaintiff or plaintiffs; and

42a
(ii) the nature and extent of the
causal relationship between the conduct
of each such person and the damages incurred by the plaintiff or plaintiffs.
(4) Uncollectible share
(A) In general
Notwithstanding paragraph (2)(B), upon1
motion made not later than 6 months after a
final judgment is entered in any private action, the court determines that all or part of
the share of the judgment of the covered person is not collectible against that covered
person, and is also not collectible against a
covered person described in paragraph (2)(A),
each covered person described in paragraph
(2)(B) shall be liable for the uncollectible share
as follows:
(i) Percentage of net worth
Each covered person shall be jointly
and severally liable for the uncollectible
share if the plaintiff establishes that—
(I) the plaintiff is an individual
whose recoverable damages under
the final judgment are equal to more
than 10 percent of the net worth of
the plaintiff; and
(II) the net worth of the plaintiff is equal to less than $200,000.

1

So in original, Probably should be preceded by “if,”.

43a
(ii) Other plaintiffs
With respect to any plaintiff not described in subclauses (I) and (II) of clause
(i), each covered person shall be liable for
the uncollectible share in proportion to
the percentage of responsibility of that
covered person, except that the total liability of a covered person under this
clause may not exceed 50 percent of the
proportionate share of that covered person, as determined under paragraph (3)(B).
(iii) Net worth
For purposes of this subparagraph,
net worth shall be determined as of the
date immediately preceding the date of
the purchase or sale (as applicable) by the
plaintiff of the security that is the subject
of the action, and shall be equal to the fair
market value of assets, minus liabilities,
including the net value of the investments of the plaintiff in real and personal
property (including personal residences).
(B) Overall limit
In no case shall the total payments required pursuant to subparagraph (A) exceed
the amount of the uncollectible share.
(C) Covered persons subject to contribution
A covered person against whom judgment
is not collectible shall be subject to contribution and to any continuing liability to the
plaintiff on the judgment.

44a
(5) Right of contribution
To the extent that a covered person is required to make an additional payment pursuant
to paragraph (4), that covered person may recover
contribution—
(A) from the covered person originally
liable to make the payment;
(B) from any covered person liable
jointly and severally pursuant to paragraph
(2)(A);
(C) from any covered person held proportionately liable pursuant to this paragraph who is liable to make the same payment
and has paid less than his or her proportionate share of that payment; or
(D) from any other person responsible
for the conduct giving rise to the payment that
would have been liable to make the same payment.
(6) Nondisclosure to jury
The standard for allocation of damages under
paragraphs (2) and (3) and the procedure for reallocation of uncollectible shares under paragraph
(4) shall not be disclosed to members of the jury.
(7) Settlement discharge
(A) In general
A covered person who settles any private
action at any time before final verdict or
judgment shall be discharged from all claims
for contribution brought by other persons.

45a
Upon entry of the settlement by the court, the
court shall enter a bar order constituting the
final discharge of all obligations to the plaintiff of the settling covered person arising out
of the action. The order shall bar all future
claims for contribution arising out of the action—
(i) by any person against the settling covered person; and
(ii) by the settling covered person
against any person, other than a person
whose liability has been extinguished by
the settlement of the settling covered person.
(B) Reduction
If a covered person enters into a settlement with the plaintiff prior to final verdict or
judgment, the verdict or judgment shall be reduced by the greater of—
(i) an amount that corresponds to
the percentage of responsibility of that
covered person; or
(ii) the amount paid to the plaintiff
by that covered person.
(8) Contribution
A covered person who becomes jointly and
severally liable for damages in any private action
may recover contribution from any other person
who, if joined in the original action, would have
been liable for the same damages. A claim for
contribution shall be determined based on the

46a
percentage of responsibility of the claimant and of
each person against whom a claim for contribution
is made.
(9) Statute of limitations for contribution
In any private action determining liability, an
action for contribution shall be brought not later
than 6 months after the entry of a final, nonappealable judgment in the action, except that an action for contribution brought by a covered person
who was required to make an additional payment
pursuant to paragraph (4) may be brought not
later than 6 months after the date on which such
payment was made.
(10) Definitions
For purposes of this subsection—
(A) a covered person “knowingly commits a violation of the securities laws”—
(i) with respect to an action that is
based on an untrue statement of material
fact or omission of a material fact necessary to make the statement not misleading, if—
(I) that covered person makes
an untrue statement of a material
fact, with actual knowledge that the
representation is false, or omits to
state a fact necessary in order to
make the statement made not misleading, with actual knowledge that,
as a result of the omission, one of the

47a
material representations of the covered person is false; and
(II) persons are likely to reasonably rely on that misrepresentation or omission; and
(ii) with respect to an action that is
based on any conduct that is not described in clause (i), if that covered person
engages in that conduct with actual
knowledge of the facts and circumstances
that make the conduct of that covered
person a violation of the securities laws;
(B) reckless conduct by a covered person
shall not be construed to constitute a knowing
commission of a violation of the securities
laws by that covered person;
(C)

the term “covered person” means—

(i) a defendant in any private action
arising under this chapter; or
(ii) a defendant in any private action arising under section 77k of this title,
who is an outside director of the issuer of
the securities that are the subject of the
action; and
(D) the term “outside director” shall
have the meaning given such term by rule or
regulation of the Commission.

